BECKER GALLAGHER
Briefs

and

DONNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief for Amicus
Curiae Stephen Wise Temple in Support of Petitioner
in 19-348, St. James School v. Darryl Biel, as Personal
Representative of the Estate of Kristen Biel, were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 17th day of
October, 2019:
Eric C. Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Ave, NW
Suite 700
Washington, DC 20036
202-955-0095
erassbach@becketlaw.org

Counsel for Petitioner
Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate 1s
executed on October 17, 2019.

Becker Gallagher Legal Pu lishin o-, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

